                 UNITED STATES DEPARTMENT OF EDUCATION
                                OFFICE OF INSPECTOR GENERAL

                                        Information Technology Audits and Computer Crime Investigations


DATE:       July 20, 2010

TO:         Danny Harris
            Chief Information Officer
            Office of the Chief Information Officer

            Richard Gordon
            Chief Information Officer
            Federal Student Aid

FROM:	      Charles E. Coe, Jr.      /s/
            Assistant Inspector General


SUBJECT:	 Investigative Program Advisory Report (IPAR)
          Bypassing of Web Content Filtering (Case #10-110249)
          Control No. 	L21K0001


Department Program: Information Assurance

The Information Assurance (IA) Program serves as a major component within the Department of
Education (Department) for protecting information that is collected, processed, transmitted, or
disseminated in any form. The mitigation of risks to prevent the unauthorized disclosure,
alteration, or destruction of Department information is vital to the successful execution of the
Department’s many business functions. The IA Security Policy establishes policies to ensure
compliance with Federal laws and regulations, thus ensuring adequate protection on the
Information Technology (IT) resources.

In the Office of the Chief Information Officer’s (OCIO’s) Security Policy Handbook, OCIO-01,
section 4.1.3.3, Internet, and OCIO 1-104, Personal Use of Government Equipment and
Information Resources, Section D, Policy to Filer Inappropriate Internet Material, the
Department outlines policies related to the use of the Internet. The Department provides
employees with appropriate Internet access to facilitate research, learning, and the
accomplishment of the Department’s mission. In so doing, the Department exercises sound
judgment in identifying suitable and worthwhile material for general access. The policy also
addresses how an employee may legitimately access filtered sites through OCIO.
Deficiencies and/or Mismanagement

Recent investigations have revealed multiple users throughout the Department and specifically in
Federal Student Aid (FSA) and OCIO have circumvented web filtering by
                                                               Specifically, users use the
                                                                                     to bypass
Page 2 – IPAR –Bypassing of Web Content Filtering


Blue Coat web content filtering configurations. The              goes undetected under the
current Blue Coat configurations. 


The most common usage has been to access web-based email and social networking sites. 

However, a user can access virtually any blocked site utilizing this technique if the
              When interviewed, one employee indicated this practice was common throughout
FSA.

Recommendations

1. It is recommended that OCIO and FSA OCIO educate users that bypassing web filtering is a
violation of Department policy that can expose the user and the Department to risks.

2. It is recommended that OCIO and FSA OCIO assess whether it is practical to monitor
       through Blue Coat, and if not consider other monitoring or filtering methods.

Please advise this office within 90 days of any corrective action taken or planned because of the
recommendations contained in this IPAR.
